                                                                                                         	
October 9, 2014


MEMORANDUM FOR:                Dr. Kathryn D. Sullivan
                               Under Secretary of Commerce for Oceans and Atmosphere and
                               NOAA Administrator




FROM:                          Andrew Katsaros
                               Acting Principal Assistant Inspector General
                               Office of Audit and Evaluation

SUBJECT:                       Audit of NOAA Hurricane Sandy Disaster Relief Funds


We are initiating an audit of NOAA’s processes for the awarding and monitoring of Hurricane Sandy
Disaster Relief funds.

Our primary objective will be to determine if NOAA adequately followed federal and departmental
guidelines in awarding Hurricane Sandy Relief grants for repair and replacement of equipment damaged
by Hurricane Sandy.

We have scheduled an entrance conference for October 15, 2014, at which time we will discuss our
objectives in more detail. Should you have any questions please contact me at (202) 482-7859, or Susan
Roy, Regional Inspector General for Audit, at (404) 730-2063. We thank you in advance for your
cooperation during this audit.
